IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-31017
Summary Calendar

FILED
May 14, 2020
Lyle W. Cayce
Clerk

PAUL POUPART,
Plaintiff-Appellant
v.

JEFFREY LANDRY, Attorney General of Louisiana; JAMES M. LEBLANC
SECRETARY, DEPARTMENT OF PUBLIC SAFETY AND CORRECTIONSJON A. GEGENHEIMER, Clerk of Court, 24th Judicial District; CORNELIUS
REGAN, 24th Judicial District Court Judge,
Defendants-Appellees
Appeal from the United States District Court
for the Middle District of Louisiana
USDC No. 3:19-CV-328

Before JOLLY, JONES, and SOUTHWICK, Circuit Judges.
PER CURIAM:*
Paul Poupart, Louisiana prisoner # 357073, appeals from the district
court’s dismissal with prejudice under 28 U.S.C. § 1915A(b)(l) of his 42 U.S.C.
§ 1983 complaint for failure to state a claim upon which relief may be granted.

Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

No. 19-31017
He also moves for a stay of the district court’s judgment pending appeal. His
motion for a stay is denied.
The district court s dismissal was based on its determination that
Poupart’s claim was barred by Heck v. Humphrey, 512 U.S. 477 (1994). We
review that dismissal de novo using the standard applied in Federal Rule of
Civil Procedure 12(b)(6). DeMarco v. Davis, 914 F.3d 383, 386 (5th Cir.) , cert.
denied, 140 S. Ct. 250 (2019). Poupart’s § 1983 claim, if successful, would
necessarily demonstrate the invalidity of his conviction and sentence. Because
he has not shown that his conviction or sentence have been reversed or
invalidated, the district court correctly determined that his claim was barred
by Heck. See Wilkinson v. Dotson, 544 U.S. 74, 81-82 (2005).
On appeal, Poupart offers various arguments challenging many of the
underlying bases for applying the Heck bar to state prisoners like him. These
arguments are all refuted, either directly or indirectly, by Heck and the
Supreme Court’s related line of cases. To the extent that Poupart challenges
those holdings, we are bound to follow them. See Randell v. Johnson, 227 F.3d
300, 301 (5th Cir. 2000). The district court’s judgment is affirmed.
The district court’s dismissal of Poupart’s complaint counts as a strike
under 28 U.S.C. § 1915(g). See Adepegba v. Hammons, 103 F.3d 383, 387-88
(5th Cir. 1996), abrogated in part on other grounds by Coleman v. Tollefson,
575 U.S. 532, —, 135 S. Ct. 1759, 1762-64 (2015). Poupart is cautioned that if
he accumulates three strikes, he may not proceed in forma pauperis in any civil
action or appeal while he is incarcerated or detained in any facility unless he
is in imminent danger of serious physical injury. See § 1915(g).
AFFIRMED; MOTION FOR STAY DENIED; SANCTION WARNING
ISSUED.

2

Case 3:19-cv-00328-BAJ-EWD

Document 10

11/25/19 Page 1 of 1

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF LOUISIANA
PAUL POUPART

CIVIL ACTION

'VERSUS
JEFFERY LANDRY, ETAL.

NO.: 19-00328-BAJ-EWD

FINAL JUDGMENT
Considering the Court’s Ruling and Order (Doc. 9), and in accordance with
Federal Rule of Civil Procedure 58,
IT IS ORDERED AND ADJUDGED that this action is DISMISSED with
prejudice.

Baton Rouge, Louisiana, this

of November, 2019.

£
JUDGE BRIANfA. JATKSON

UNITED^lATESSf^*------STRICT COURT
MIDDLE DISTRICT OF LOUISIANA

